                                              OFFICE OF THE ASSISTANT
                                              SECRETARY FOR
                                              ADMINISTRATION AND
                                              MANAGEMENT
Office of Inspector General—Office of Audit




                                              DEPARTMENT OVERSIGHT NEEDS TO BE
                                              STRENGTHENED TO MINIMIZE PROCUREMENT
                                              RISK




                                                                   Date Issued:     March 30, 2012
                                                                Report Number:    17-12-002-07-711
U.S. Department of Labor                             March 2012
Office of Inspector General
Office of Audit
                                                     DEPARTMENT OVERSIGHT NEEDS TO BE
                                                     STRENGTHENED TO MINIMIZE
                                                     PROCUREMENT RISK
BRIEFLY…
Highlights of Report Number 17-12-002-07-711,        WHAT OIG FOUND
issued to the Assistant Secretary for
Administration and Management.                       We could not always determine that the
                                                     Department’s procurement actions were proper.
                                                     For 4 of the 67 contracts we reviewed, DOL could
WHY READ THE REPORT                                  not produce documentation that it awarded
                                                     contracts based on the best value to the
DOL’s procurement program has been an OIG top        government. Furthermore, for 5 of the 68 contract
management challenge and remains a concern for       modifications we reviewed DOL could not produce
the OIG. Recent OIG reports found that the Mine      documentation that it issued contract modifications
Safety and Health Administration and Office of Job   within the scope of work and terms of the initial
Corps could not demonstrate their procurement        contracts. Based on our sample results, we
processes complied with the Federal Acquisition      estimated that as much as $1.3 million in contracts
Regulation (FAR). In Fiscal Year (FY) 2010, DOL      awards and $21.8 million in contract modifications
awarded 4,291 contracts and purchase orders          may have similar documentation problems.
totaling approximately $508 million, and issued
5,615 contract and purchase order modifications      The Department also could not demonstrate
totaling approximately $1.7 billion.                 through documentation that it complied with the
                                                     FAR or DOL requirements for checking the
WHY OIG CONDUCTED THE AUDIT                          Excluded Parties List System, obtaining conflict of
                                                     interest certifications, and performing a higher
The audit objective was to answer the following      level of review for a number of awards. The
question:                                            Department had not recently updated its
                                                     procurement regulations and guidance or
To what extent did DOL ensure contracts were         developed standardized procurement procedures.
awarded based on the best value to the               In addition, the Department has never conducted a
government and contract modifications were           procurement review of the agency with the largest
issued within the terms of initial contracts?        volume of procurement activity. Furthermore, the
                                                     majority of procurement reviews the Department
                                                     conducted occurred in FY 2006 or prior.
READ THE FULL REPORT
                                                     WHAT OIG RECOMMENDED
To view the report, including the scope,
methodology, and full agency response, go to:        We recommended that the Assistant Secretary for
http://www.oig.dol.gov/public/reports/oa/2012/17-    Administration and Management update DOL’s
12-002-07-711.pdf                                    procurement regulations and guidance and
                                                     develop standardized procurement procedures
                                                     using the Standards for Internal Control in the
                                                     Federal Government and input from component
                                                     agency officials.

                                                     The Department agreed to take appropriate action
                                                     to update Department-wide procurement policies
                                                     and procedures. However, it did not agree with our
                                                     assessment of the potential risk to the integrity of
                                                     the procurement process.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                       DOL Procurement Oversight 

                                      Report No. 17-12-002-07-711 

                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


results in brief ............................................................................................................... 2


Objective — To what extent did DOL ensure that contracts were awarded based 

on the best value to the government and contract modifications were issued 

within the terms of initial contracts?........................................................................... 4

          The Department’s lack of procurement oversight exposed DOL to risk................ 4


          Finding 1 — DOL could not demonstrate through documentation that it 

                   funded FY 2010 procurements based on best value or within the 

                   scope and terms of initial contracts. ....................................................... 4

          Finding 2 — DOL could not demonstrate through documentation that it 

                   checked EPLS, documented conflict of interest certifications, and 

                   performed higher levels of review. ......................................................... 9

          Finding 3 — DOL had not updated its policies or developed detailed and 

                   standardized procurement procedures................................................. 12


RECOMMENDATION ................................................................................................... 15


Exhibits
          Exhibit 1 EPLS, conflict of interest certifications, and higher level of review 

                    exceptions. ........................................................................................... 19

          Exhibit 2 Statistical Projections - FY 2010 Contracts and Contract 

                    Modifications ........................................................................................ 23


Appendices
          Appendix A Background ..................................................................................... 27

          Appendix B Objective, Scope, Methodology, and Criteria .................................. 29

          Appendix C Acronyms ........................................................................................ 33

          Appendix D OASAM Response to Draft Report.................................................. 35

          Appendix E Acknowledgements ......................................................................... 47





                                                                                              DOL Procurement Oversight 

                                                                                             Report No. 17-12-002-07-711 

             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                       DOL Procurement Oversight 

                                      Report No. 17-12-002-07-711 

                                                      U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                            Office of Inspector General
                                                    Washington, D.C. 20210




March 30, 2012

                              Assistant Inspector General’s Report



T. Michael Kerr
Assistant Secretary for Administration and Management
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The Federal Acquisition Regulation (FAR) requires that Chief Acquisition Officers (CAO)
have overall responsibility for agency performance of procurement activities and
procurement programs, which includes monitoring for performance in accordance with
appropriate laws and regulations. The FAR also requires that Senior Procurement
Executives, if designated, report directly to the CAO without intervening authority. In
addition, the Department of Labor (DOL) is responsible for complying with the
Standards for Internal Control in the Federal Government (Standards), which provides
the overall framework for establishing and maintaining internal control and for identifying
areas at greatest risk of fraud, waste, abuse, and mismanagement. 1 Secretary’s Order
2-2009 provides that the Assistant Secretary for Administration and Management
(OASAM) is the DOL CAO and, with the exception of the Office of Inspector General
(OIG), is responsible for providing oversight for all DOL procurement activities, including
delegating contracting officers (CO) the authority to procure goods and services. DOL’s
Deputy Assistant Secretary for Operations is the DOL Senior Procurement Executive
and is responsible for prescribing procurement policies, procedures and standards, and
performing monitoring activities.

Within DOL, acquisition authority is decentralized among OASAM, Employment and
Training Administration (ETA), Bureau of Labor Statistics (BLS), Mine Safety and Health
Administration (MSHA), and OIG. DOL’s procurement program has been an OIG top
management challenge and remains a concern for the OIG. Recent OIG reports found
that MSHA and the Office of Job Corps (Job Corps) could not demonstrate through
documentation that their procurement processes complied with the FAR; therefore, we
excluded them from this report in order to provide coverage of the other component
agencies’ procurement activity. 2 In Fiscal Year (FY) 2010, DOL awarded 4,291
contracts and purchase orders totaling approximately $508 million, and issued 5,615

1
  U.S. Government Accountability Office, Standards for Internal Control in the Federal Government (GAO/AIMD-00-
21.3.1), November 1999.
2
  MSHA’s Controls Over Contract Awards Need Strengthening, 05-11-001-06-001 (February 16, 2011). Transfer of
Job Corps Program Strengthened Procurement Processing but Improvements are Needed to Ensure Fair and Open
Competition, 04-08-003-01-370 (September 30, 2008).

                                                                                   DOL Procurement Oversight
                                                        1                         Report No. 17-12-002-07-711
                                                      U.S. Department of Labor – Office of Inspector General



contract and purchase order modifications totaling approximately $1.7 billion. Of the FY
2010 awards within our audit scope, BLS, ETA, and OASAM awarded 141 contracts
totaling approximately $58.8 million, and issued 301 contract modifications totaling
approximately $183 million. Of these contracts and contract modifications, DOL funded
$12.6 million and $3.3 million, respectively, under the American Recovery and
Reinvestment Act of 2009 (ARRA).

Our audit objective was to answer the following question:

        To what extent did DOL ensure contracts were awarded based on the best
        value to the government and contract modifications were issued within the
        terms of initial contracts?

We reviewed relevant laws, regulations, internal controls, agency guidance, and
supplemental documents relevant to DOL procurement practices that were in effect
during FY 2010. We reviewed a statistical sample of 67 FY 2010 contracts awarded and
68 FY 2010 contract modifications issued by BLS, ETA, and OASAM, as well as eight
contract modifications that MSHA issued to a suspended contractor. 3

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.


RESULTS IN BRIEF

In our review of 67 contracts, we determined that DOL could not demonstrate through
documentation that component agencies awarded 4 contracts based on the best value
to the government. Component agencies could not demonstrate documentation of price
reasonableness for three contracts and for a fourth, the component agency could not
justify the contractor selected. Based on our sample, OIG estimated that as much as
$1.3 million out of $58.8 million in our universe of DOL contracts may lack
documentation to support the awards. 4

Through our review of 68 contract modifications, we determined that DOL could not
demonstrate through documentation that component agencies issued 5 contract
modifications within the scope of work and terms of the initial contracts. Component
agencies exceeded the contract ceiling for four contract modifications. In addition, one

3
  During fieldwork we identified a contractor who performed work at DOL in FY 2010 was on the suspension list. We
searched the Department’s FY 2010 procurements and identified that MSHA issued 8 contract modifications to that
contractor. We found that the MSHA issued 1 of these 8 awards after the contractor was suspended. However, it
appears that MSHA did not identify the suspension of the contractor because the suspension information was not
entered into EPLS until after MSHA performed EPLS verification.
4
  See Exhibit 2 and Appendix B for details on data reliability testing and statistical sampling.

                                                                                   DOL Procurement Oversight
                                                        2                         Report No. 17-12-002-07-711
                                                        U.S. Department of Labor – Office of Inspector General



of these contract modifications did not have a clear Statement of Work and did not
contain evidence of a price reasonableness determination to support the Statement of
Work. For a fifth contract, the component agency issued the modification to a contractor
for work performed under the direction of a Program Office without the Contracting
Officer’s (CO) knowledge or consent. Based on our sample, OIG estimated that as
much as $21.8 million out of $183 million in our universe of DOL contract modifications
may lack documentation to support the modifications. 5

We identified 24 contracts and contract modifications for which the component agencies
could not provide documentation that they checked the Excluded Parties List System
(EPLS) prior to award. 6 We independently checked EPLS for the contractors of these
24 awards and found that DOL did not award these contracts and contract modifications
to suspended or debarred contractors. We also identified 23 sole source contracts for
which the component agencies could not provide documentation that they obtained
required conflict of interest certifications and 45 awards for which they could not
document a higher level of review. 7 Furthermore, we identified one sole source contract
outside of our statistical sample totaling approximately $3.5 million where the
component agency could not provide documentation for price reasonableness or
provide support for the contractor’s 8 percent profit.

DOL had not updated its procurement regulations and guidance since 2008, and had
not developed detailed and standardized procedures for EPLS, higher level review, and
conflict of interest. The existing regulations and guidance regarding EPLS directed the
heads of component agencies to provide a system to ensure contracting staff checked
EPLS. In addition, DOL’s existing regulations and guidance did not address procedures
to ensure component agencies provide verification documentation for conflict of interest
certifications or documented a higher level of review of contracts and contract
modifications. Furthermore, the Senior Procurement Executive’s monitoring of DOL
procurement activities through its Procurement Management Reviews lacked
department-wide coverage.

We recommend that the Assistant Secretary for Administration and Management
update DOL’s procurement regulations and guidance and develop standardized
procurement procedures using the Standards for Internal Control in the Federal
Government and input from component agency officials.

In response to our draft report, the Department acknowledged that any process can be
improved and stated it will take appropriate action to update department-wide policies
and procedures. However, the Department expressed concerns about changes to the


5
  We projected the statistical sample of 68 modifications to the universe of 301 modifications at a 95 percent
confidence level. See Exhibit 2 and Appendix B for details on data reliability testing and statistical sampling.
6
  FAR, Part 2, Subpart 2.101, defines EPLS an “an electronic database maintained and posted by the General
Services Administration containing the list of all parties suspended, proposed for debarment, debarred, declared
ineligible, or excluded or disqualified under the non procurement common rule by agencies, Government
corporations, or by the Government Accountability Office.”
7
  Of these 23 sole source awards, 19 were SBA 8(a) contracts.

                                                                                     DOL Procurement Oversight
                                                          3                         Report No. 17-12-002-07-711
                                           U.S. Department of Labor – Office of Inspector General



audit objective, the validity of OIG’s sampling methodology, and the use of internal
controls as a basis for the findings in this report.

We disagree with the Department’s assertion that we changed our audit objective. We
have clarified the wording, but our objective was always to determine if the Department
was ensuring the propriety of its procurements. Regarding our sampling methodology,
we used a stratified random sampling plan that is considered more efficient than other
sampling designs. Our sample was representative of the population we tested,
unbiased, and sufficient for the representations we made. We disagree with the
Department’s statements regarding the use of internal controls as a basis for findings in
the report. Internal controls are an inherent aspect of conducting performance audits
and are not required to be a stated audit objective.

The Department also provided specific responses to the draft report’s findings,
emphasizing that the findings were primarily documentation issues and there were no
findings of procurement abuse or improperly awarded contracts. However, we note that
documentation is critical to the Department’s efforts to ensure controls have been
followed, and we were unable to make that determination based solely on the
information in DOL’s records. The issues we identified related to controls over sole
source awards, ensuring conflicts of interest do not impair the procurement process,
and preventing awards to suspended or debarred contractors. These activities are
critical internal controls for procurement. Without proper documentation, the Department
is at risk of having improper procurements in the future.

The Department’s entire response is included in Appendix D. Where appropriate, we
made adjustments to the report based on the response provided by the Department.


RESULTS AND FINDINGS

Objective — To what extent did DOL ensure that contracts were awarded based
             on the best value to the government and contract modifications
             were issued within the terms of initial contracts?

      The Department’s lack of procurement oversight exposed DOL to risk.


Finding 1 — DOL could not demonstrate through documentation that it funded FY
            2010 procurements based on best value or within the scope and
            terms of initial contracts.

Contract Best Value Not Demonstrated Through Documentation

In our review of 67 contracts and 68 contract modifications, we found DOL component
agencies could not demonstrate they awarded 4 contracts based on the best value to
the government, or issued 5 contract modifications within the scope of work and terms

                                                                     DOL Procurement Oversight
                                            4                       Report No. 17-12-002-07-711
                                                         U.S. Department of Labor – Office of Inspector General



of initial contract awards. Based on our sample, we estimated there could be as much
as $1.3 million in contracts and $21.8 million in contract modifications where the
Department does not have sufficient documentation to support the award (see Exhibit
2).

Component agencies could not provide documentation that they awarded four contracts
based on the best value to the government (see Table 1). Component agencies could
not provide price reasonableness documentation for three contracts and for a fourth, the
component agency could not justify the contractor selected.

Table 1: 4 Contracts Exceptions
    Contract Number                    Obligated $ Amount       Exception

    DOLJ109631286                      $39,803                  No evidence to support price reasonableness determination.

    DOLJ109630857                      $154,980                 No evidence to support price reasonableness determination.

    DOLJ109630254                      $37,158                  No documentation to support price reasonableness.

    DOLJ102J14059                      $26,393                  Justification did not support award.


Price Reasonableness

Three contracts lacked evidence that the CO had made a determination of price
reasonableness. 8

      •	 Contract #DOLJ109631286 (sole source) lacked adequate documentation of a
         price reasonableness determination. Though component agency officials
         provided a Price Negotiation Memorandum to support price reasonableness, they
         could not provide the Independent Government Cost Estimate (IGCE) alluded to
         in the Price Negotiation Memorandum as the basis for price reasonableness. In
         addition, these officials noted they may not have adequately documented the
         price reasonableness determination.

      •	 Contract #DOLJ109630857 (sole source) lacked an adequate price
         reasonableness determination. Though component agency officials provided a
         Memorandum to the File to support price reasonableness, they agreed they may
         not have adequately documented it.

      •	 Contract #DOLJ109630254 (sole source) did not contain evidence to support
         price reasonableness.

The FAR specifies a number of CO responsibilities regarding price reasonableness
determinations. FAR Part 6 Subpart 6.303-2(7) requires the CO to document the price
reasonableness determination for sole source contracts.



8
    OIG did not assess whether or not the costs associated with these contracts were reasonable.

                                                                                             DOL Procurement Oversight
                                                            5                               Report No. 17-12-002-07-711
                                                      U.S. Department of Labor – Office of Inspector General



In its response to the draft report, the Department stated that all of the contracts cited
except one had the appropriate price reasonableness documentation. We disagree
because the Department did not provide any price reasonableness documentation that
would change our determination with respect to these contracts.

Sole Source Justification

One simplified acquisition contract lacked adequate justification documentation for the
contractor selected. The justification for contract #DOLJ102J14059 (sole source) cited
FAR, Part 6, Subpart 6.302-1, because only one responsible source was available and
no other supplies or services satisfied agency requirements. However, the justification
pertained to a different contractor. Component agency officials could not provide
documentation supporting their assertion or a justification supporting the contractor
selected. Instead, they cited a series of emails that we determined did not contain the
minimum information required by the FAR to justify the procurement.

In its response to the draft report, the Department stated that this award was justified as
the contractor was the exclusive reseller of the product. OIG disagrees that the award
was properly justified since the justification referred to the manufacturer and not the
reseller, to which the award was made and the contract file did not adequately
document that the contractor to whom the award was made was the exclusive reseller.

FAR, Part 13, Subpart 13.106-1(b), allows purchases not exceeding the simplified
acquisition threshold to be solicited from one source if the CO determines only one
source is reasonably available. 9 FAR, Part 6, Subpart 6.303-2, requires justifications to
contain a number of minimum facts; specifically, FAR, Part 6, Subpart 6.303-2(5),
requires the CO to demonstrate that the contractor’s “unique qualifications or the nature
of the acquisition requires use of the authority cited.”

Within Scope Modifications Not Demonstrated Through Documentation

Component agencies could not provide documentation that they issued five contract
modifications within the scope of work and terms of the initial contracts, which included
contract ceiling price, clear Statement of Work, and price reasonableness. Four contract
modifications exceeded the contract ceiling, including one that did not have a clear
Statement of Work and did not contain evidence of a price reasonableness
determination to support the Statement of Work. For a fifth contract, a program office
directed a contractor to perform additional work without the COs knowledge and
consent.




9
 At the time the component agency awarded the contract noted above, the simplified acquisition threshold was
$100,000.

                                                                                   DOL Procurement Oversight
                                                        6                         Report No. 17-12-002-07-711
                                                   U.S. Department of Labor – Office of Inspector General



Table 2: 5 Contract Modification Exceptions
 Contract Number and Modification #   Obligated $ Amount      Exception

 DOLJ079426341, Modification #5       $2,366,318              Ceiling exceeded Procurement Review Board (PRB)
                                                              and CAO approval amount.

 DOLJ079526604, Modification #12      $643,316                Unclear Statement of Work and no price
                                                              reasonableness determination to support the
                                                              additional work in the Statement of Work.

 DOLJ081A20618, Modification #11      $1,776,398              Exceeded pre-established contract year estimated
                                                              costs.

 DOLJ10FF22136, Modification #1       $7,560                  Exceeded contract year ceiling without Assistant
                                                              Regional Administrator pre-approval.

 DOLJ099529232, Modification #1       $594,010                Program Office directed the contractor to perform
                                                              additional work without the COs knowledge and
                                                              consent.


Contract Ceiling, Price Reasonableness, and Statement of Work

Four contract modifications were issued outside the scope and terms of initial contracts,
as follows:

    •	 DOLJ079426341 Modification #5 exceeded the initial contract ceiling amounts
       approved by the PRB and CAO. Component agency officials could not provide
       documentation to support that the PRB had subsequently approved the increase.

    •	 DOLJ079526604 Modification #12 did not have a clear Statement of Work and
       did not contain evidence of a price reasonableness determination. The Statement
       of Work did not contain a clear description of work and the purpose of some of
       the line items in the Price/Cost Schedule was not clear. Furthermore, the file did
       not contain evidence that the CO made a determination that the price of
       additional services was fair and reasonable. While the component agency used
       the same labor rate as the initial contract for the coordinator/facilitator in
       Modification #12, the modification contains additional line items that require a
       price reasonableness determination.

        In its response to the draft report, the Department stated that some Statements
        of Work can be very complex and highly technical, and that a sufficient price
        determination memorandum was included in the file. While we agree that
        Statements of Work can be complex, additional line items were added and the
        Department did not provide a price reasonableness determination to support
        these items.

    •	 DOLJ081A20618 Modification #11 exceeded the maximum percentage allowed
       to the pre-established contract year estimated costs for Option Year 2 specified
       in the initial contract. This modification increased the ceiling of Option Year 2 by
       nearly 20 percent; however the original contract explicitly prohibited increases to
       pre-established contract year estimated costs by more than 10 percent, as
       follows: “Deviations which would increase the total pre-established option year

                                                                                DOL Procurement Oversight
                                                    7                          Report No. 17-12-002-07-711
                                          U.S. Department of Labor – Office of Inspector General



      estimated costs by more than 10 percent shall not be permitted under any
      circumstances.” According to component agency officials, they exceeded the
      estimated contract year price resulted from the funding increase associated with
      ARRA, which could not have been anticipated in 2008 when the contract was
      awarded. In addition, they stated that the increased cost was associated with
      providing technical assistance to additional grantees that they funded using the
      additional ARRA funds assigned and the work was identical in nature to the
      existing contract.

      According to component agency officials, during interaction with the PRB on an
      earlier modification, they agreed to re-compete the requirement, which they
      believed negated the need to return it to the PRB for the ceiling increase
      resulting from Modification #11. OIG disagrees that the agreement to re-compete
      the requirement canceled the requirement for the component agency to return it
      to the PRB for this modification.

      In its response to the draft report, the Department stated that since the increase
      was not prohibited by statute or regulation, this increase was within the authority
      of the CAO and reviewed by the PRB. While we agree the increase was not
      prohibited by statute or regulation, the Department did not obtain PRB approval
      for this modification. Instead, the Department provided PRB documentation for
      an earlier contract modification.

   •	 DOLJ10FF22136 Modification #1 exceeded the contract year ceiling without
      pre-approval from the Assistant Regional Administrator.

      FAR, Part 6, Subpart 6.001(c), exempts modifications from full and open
      competition if the modifications are within the scope and under the terms
      of an existing contract.

Equitable Adjustment Issued Instead of Using Ratification for Unauthorized
Commitment

A component agency issued one modification as an equitable adjustment to a
contractor instead of requesting the Program Office to submit a ratification request for
work completed by the contractor that exceeded the CO’s authorization.
DOLJ099529232 Modification #1 provided an equitable adjustment to the contractor for
additional work performed based on instructions from the Program Office without the
CO’s knowledge and consent. The CO originally issued a verbal authorization followed
by written confirmation to the contractor to continue work as specified in the initial
contract. However, the CO issued a stop work order after determining the contractor
was performing unauthorized work. The CO subsequently issued Modification #1 to the
contractor as an equitable adjustment.

According to component agency officials, the contractor submitted a claim for increased
costs for travel and labor above the original amount specified in the contract. The claim

                                                                    DOL Procurement Oversight
                                            8                      Report No. 17-12-002-07-711
                                                            U.S. Department of Labor – Office of Inspector General



stated these costs were attributable to directions given by the Program Office for travel
to additional locations for additional information gathering interviews over and above
those originally identified in the contract’s Statement of Work. The CO did not authorize
this additional work: however, component agency officials stated the work met the
requirements for approval of a ratification, the payment and additional work was of the
same nature contained in the contract’s statement of work, funding was available, the
Program Office directed and accepted the contractor’s performance, and the
contractor’s performance benefited DOL.

FAR, Part 6, Subpart 6.001(c), exempts modifications from full and open competition if
the modifications are within the scope and under the terms of an existing contract.

           FAR, Part 1, Subpart 1.602-3 (a), states that ratification is the act of
           approving an unauthorized commitment, which is defined as an
           agreement that is not binding solely because the Government
           representative who made it lacked the authority to enter into that
           agreement on behalf of the Government.

In its response to the draft report, the Department stated that the CO had the authority
to process this action as an equitable adjustment because the CO verbally authorized
the contractor to perform the work. We disagree because the Program Office, not the
CO, instructed the contractor to provide services and meet deadlines that were not
included in the contract, which resulted in an unauthorized commitment requiring
ratification.


Finding 2 — DOL could not demonstrate through documentation that it checked
            EPLS, documented conflict of interest certifications, and performed
            higher levels of review.

Based on our review of contract and contract modification files, component agencies
could not provide documentation that they checked EPLS (24 instances), obtained
conflict of interest certifications (23 instances), and documented a higher level of review
(45 instances) (see Exhibit 1). In addition, we identified one sole source contract totaling
approximately $3.5 million where the component agency could not provide price
reasonableness documentation or provide support for the contractor’s 8 percent profit. 10

EPLS

We identified 24 contracts and contract modifications totaling approximately
$13.1 million for which the component agencies could not provide documentation that
they checked EPLS prior to award. Without assurance that component agencies
performed and documented an EPLS search, there is a risk that DOL could make
awards to ineligible contractors. We independently verified that DOL did not award
these contracts and contract modifications to suspended or debarred contractors.
10
     We did not include this contract in our projections as a result of incorrect classification in FPDS-NG.

                                                                                           DOL Procurement Oversight
                                                              9                           Report No. 17-12-002-07-711
                                                       U.S. Department of Labor – Office of Inspector General




FAR, Part 9, Subpart 9.405(d), requires COs to review EPLS after the receipt of
proposals and again immediately prior to award. 11 To ensure this occurs, a Senior
Procurement Executive Memorandum, dated December 30, 2008, requires COs to
review EPLS prior to award and ensure a copy is included in contract files.

In its response to the draft report, the Department stated that a CO’s signature on the
award and the required responsibility determination documents demonstrates that EPLS
was checked. We disagree that a CO’s signature on the award and the required
responsibility determination documents demonstrates that EPLS was checked. Although
the FAR does not contain an EPLS documentation requirement, the Senior
Procurement Executive Memorandum does require such documentation.

Conflict of Interest

We identified 23 sole source awards totaling approximately $22.8 million for which the
component agencies could not provide documentation that they obtained required
conflict of interest certifications. Of these 23 contracts, 19 were SBA Section 8(a)
awards totaling approximately $15.4 million. According to the officials of one component
agency, conflict of interest certifications were not required for SBA Section 8(a)
contracts and they are not responsible for verifying the conflict of interest certifications
of program officials. Another component agency’s officials told us that they only became
aware of the requirement for conflict of interest certifications by the program official for
SBA Section 8(a) sole source contracts in 2010. Specifically, they told us the previous
OAMS Director sent an email during 2010 that informed COs of this requirement;
consequently, their COs did not obtain the certification for some of their previously
awarded SBA Section 8(a) sole source contracting actions but they are now doing so.

The FAR does not exempt component agencies from verifying conflict of interest
certifications for SBA Section 8(a) contracts. OIG believes that verifying the conflict of
interest certifications of program officials and documenting this prior to awarding a
contract are necessary actions the COs must take. The CO should also ensure
responsible officials include a conflict of interest certification in their recommendation of
potential SBA Section 8(a) contractors and include it in the contract file. Without this
certification, there is risk of an undisclosed business or personal relationship could exist
between officials involved in the procurement and the contractor which could result in
the government not receiving the best value.

FAR, Part 3, Subpart 3.101-1, requires that Government procurements should avoid
any actual or appearance of conflict of interest in Government-contractor relationships.
In addition, FAR, Part 1, Subpart 1.602-2, requires COs to ensure performance of “all
necessary actions for effective contracting.”



11
  This requirement does not apply to contract modifications that incrementally fund a contract under the terms and
conditions of the initial contract.

                                                                                     DOL Procurement Oversight
                                                         10                         Report No. 17-12-002-07-711
                                                        U.S. Department of Labor – Office of Inspector General



DLMS 2, Section 835.A, requires the program official responsible for an “other than full
and open competition” to “explain any past or existing business or personal
relationships” with a proposed contractor or “certify that none exist”. To ensure that this
occurs, a Senior Procurement Executive Memorandum, dated December 30, 2008,
requires COs to document conflict of interest certifications made by program officials for
sole source contracts.

In its response to the draft report, the Department stated that conflict of interest
certifications are not required for SBA Section 8(a) contracts, and DLMS 2, Section
835.A, does not apply. We disagree that conflict of interest certifications are not
required. While we agree the FAR does not explicitly require certifications,
documentation is critical to the Department’s efforts to ensure controls have been
followed. Furthermore, these certifications are required by the Department’s DLMS.

Documentation of Higher Level Review

We identified 45 awards totaling approximately $45 million for which the component
agencies could not demonstrate they documented a higher level of review of their
contract and contract modifications prior to award or issuance. According to component
agency officials, COs do not perform all activities prior to contract award and contract
modification issuance. Rather, Contract Specialists perform a number of activities
during the procurement process. For example, one component agency’s officials
believed the CO’s signature on the contract or contract modification was all that was
required to document the CO’s review of the procurement, including activities the
Contract Specialists performed. Another component agency’s officials told us their COs
discarded review sheets from contract files once Contract Specialists corrected
deficiencies. OIG believes that documenting a higher level of review outside of the CO’s
signature on contracts and contract modifications is a necessary action to verify
procurements comply with the FAR.

A Senior Procurement Executive Memorandum dated December 30, 2008, requires
COs, as an important and necessary business practice, to adequately document that all
necessary procurement steps were satisfied. A checklist must be completed for each
contract prior to award and maintained in the contract file signed by the CO. 12

In its response to the draft report, the Department stated that higher level review is not a
procurement violation. While we agree the FAR does not require documentation of
higher level review, documentation is critical to the Department’s efforts to ensure
controls have been followed and the Department’s Senior Procurement Executive
Memorandum requires such documentation.



12
   One component agency did not use checklists. Rather, they used file indexes that the CO didn’t sign in the majority
of cases. They believe there was no signatory requirement for contract checklists and contract modifications did not
require a checklist. As a result, we did not include instances on non-compliance with the Senior Procurement
Executive Memorandum checklist and checklist signatory requirements in the number of awards or obligated value
cited, as this would skew the audit results.

                                                                                      DOL Procurement Oversight
                                                         11                          Report No. 17-12-002-07-711
                                                U.S. Department of Labor – Office of Inspector General



Contractor Profit

We identified one sole source contract totaling approximately $3.5 million — contract
#DOLJ101A21386 — where the component agency could not provide price
reasonableness documentation or support for the contractor’s 8 percent profit, which
could amount to $280,000.

FAR, Part 15, Subparts 15.406-3(a) (10), and 15.406-3(a) (11), require the CO to
document profit negotiations and price reasonableness determination.


Finding 3 — DOL had not updated its policies or developed detailed and
            standardized procurement procedures.

DOL had not recently updated its procurement regulations and guidance, and had not
developed detailed and standardized procedures for three of the areas we reviewed. As
a result, the consistency and quality of DOL’s procurement function was heavily
dependent on its component agencies. Furthermore, Procurement Management
Reviews conducted by the Senior Procurement Executive, through OAMS, lacked
department-wide coverage.

We found that DOL had not updated DOLAR and DLMS 2, Chapters 830, 838, and 839
since 2008 and had not developed detailed and standardized procurement procedures
for EPLS, higher level review, and conflict of interest. Though the Standards require
management to develop detailed policies, procedures, and practices, DOLAR and the
DLMS 2 chapters cited above did not adequately fulfill this requirement. For example,
we identified the following:

     •	 A DOLAR provision and a CO Notice were out of date with regard to threshold
        amounts. 13

     •	 The existing DOLAR language regarding EPLS only directed the heads of
        component agencies to “provide an effective system to ensure that contracting
        staffs consult [EPLS].” In addition, DOLAR did not address procedures to ensure
        component agencies document verification of conflict of interest certifications or a
        higher level of review of contracts and contract modifications.

     •	 Aside from awards reviewed by the PRB, DLMS 2, Chapter 830, did not address
        procedures to ensure component agencies provide documentation that they
        checked EPLS or documented a higher level of review of contracts and contract
        modifications. In addition, DLMS 2, Chapter 830, did not provide detailed

13
  The simplified acquisition threshold increased from $100,000 to $150,000 in October 1, 2010. DOL had
not updated DOLAR document DL 1-2216, Simplified Acquisition Documentation Checklist, to reflect this
increase. In addition, DOL listed CO Notice 2009-20, Format for Office of the Secretary Reporting, on
Labornet as active, but the Procurement Executive actually rescinded it in 2009 via email to COs
Department-wide.

                                                                          DOL Procurement Oversight
                                                  12                     Report No. 17-12-002-07-711
                                                        U.S. Department of Labor – Office of Inspector General



         procedures to ensure component agencies demonstrated verification of conflict
         of interest through documentation.

     •	 DOL last updated DOLAR in 2004; DLMS 2 Chapter 830, Procurement
        Management Program in 2004; and DLMS 2, Chapters 838 and 839, which
        address contracts greater than 5 years and multi-year contracts, in 2008.

In the absence of updated department-wide procurement regulations and guidance as
well as detailed and standardized procurement procedures, we found that component
agencies developed their own Standard Operating Procedures, memorandums, or
supervisory review policies, among other controls, for their procurement activities.
Despite these efforts, we found component agencies could not provide documentation
that they checked EPLS (24 instances), obtained conflict of interest certifications (23
instances), and documented a higher level of review (45 instances) in the contracts they
awarded and contract modifications they issued (see Finding 2). In addition, component
agencies were either not aware of or did not adhere to a memorandum issued by the
Senior Procurement Executive in response to an OIG report that covered these and
other areas.

Recent OIG audits found that MSHA and Job Corps could not demonstrate their
procurement processes complied with the FAR. We found MSHA did not adequately
support sole source awards and include justifications or adequate justifications to make
awards, among other deficiencies. A 2008 report on the transfer of the Job Corps
program from ETA to the Office of the Secretary found that the ETA and OASAM did not
always follow the FAR in processing contract awards and contract modifications. We
found ETA and OASAM did not adequately support sole source awards and include
justifications or adequate justifications to make awards, obtain PRB and CAO approval
for contract modifications, and provide necessary contract documentation, among other
deficiencies. 14 Although DOL has made progress in addressing these deficiencies at
MSHA and Job Corps, we found that these deficiencies extended beyond MSHA and
Job Corps. Specifically, similar issues existed with the procurement processes at BLS,
ETA, and OASAM.

In its response to the draft report, the Department stated that the report did not
demonstrate how the Department is not in compliance with the Standards. We disagree
since the Standards state that management must continually assess and evaluate its
internal controls to assure that the control activities used are effective and updated
when necessary. As noted in this and prior OIG reports, DOL internal control
procedures for EPLS, conflict of interest, and higher level review are neither current nor
effective.

We determined that the Senior Procurement Executive’s monitoring of DOL
procurement activities through its Procurement Management Reviews lacked


14
  As a result of the transfer, responsibility for providing contract support moved from ETA to OASAM. OIG identified
seven deficiencies in ETA contracts and two deficiencies in OASAM contracts samples for the 2008 report.

                                                                                     DOL Procurement Oversight
                                                         13                         Report No. 17-12-002-07-711
                                                        U.S. Department of Labor – Office of Inspector General



department-wide coverage. 15 Specifically, the Senior Procurement Executive, through
OAMS, had never conducted a Procurement Management Review of OPS — which has
the largest volume of contracting activity in DOL — and had not conducted a
Procurement Management Review of the OASAM Regional Offices since 2003. OAMS
had conducted a total of 19 Procurement Management Reviews, as follows: six at BLS
since January 2001, the last in May 2010; one at ETA in September 2008; six at various
Job Corps Regions since September 1997, the last at the Dallas Regional Office in April
2003; five at MSHA since 1992, the last in August 2009; and one at the Veterans’
Employment & Training Service, conducted in April 2011. 16 We did not evaluate the
substance or results of these Procurement Management Reviews.

In its response to the draft report, the Department stated that the 19 procurement
management reviews was evidence of procurement oversight. We disagree, since 14 of
the 19 Procurement Management Reviews were conducted during or prior to FY 2006,
which demonstrates that ongoing monitoring of the Department’s procurement has not
occurred.

The Standards state that management is responsible for developing the detailed
policies, procedures, and practices to fit their agency’s operations and to ensure that
they build these controls into an integral part of operations. In addition, the Standards
state that as programs change and as agencies strive to improve operational
processes, management must continually assess and evaluate its internal control to
assure that the control activities used are effective and updated when necessary.
Furthermore, the Standards state that management should generally design internal
controls to assure that their agency conducts ongoing monitoring in the course of
normal operations. Management should perform ongoing monitoring and ensure they
ingrain monitoring in the agency’s operations.

FAR, Part 2, Subpart 2.101(a), defines CAOs as the executive official responsible for
agency performance of procurement activities and procurement programs, which
includes monitoring for performance in accordance with appropriate laws and
regulations. 17 FAR, Part 2, Subpart 2.101(a), defines a Senior Procurement Executive
as the official responsible for management direction of procurement activities, which
includes implementation of procurement standards. 18

The results and findings of this and prior OIG reports demonstrate weaknesses in
DOL’s procurement process and highlight that the Department should strengthen its
oversight and monitoring of DOL procurements. The lack of updated department-wide
procurement regulations and guidance as well as detailed and standardized

15
   The OAMS Director stated that the Secretary of Labor's Operating Plan outlines the Procurement Management 

Reviews OAMS is to perform and that they rotate these reviews among the component agencies. 

16
   The OAMS Director stated that OAMS had scheduled a Procurement Management Review of ETA for September 

2011. OAMS conducted Procurement Management Reviews at the following Job Corps Regions: two reviews at 

Atlanta; two at San Francisco; one at Seattle and one at Dallas. 

17
   FAR, Part 2, Subpart 2.101(a), through incorporation of 41 U.S.C. §414(c), also requires that Senior Procurement 

Executives, if designated, report directly to the CAO without intervening authority. 

18
   Ibid. 


                                                                                     DOL Procurement Oversight
                                                         14                         Report No. 17-12-002-07-711
                                         U.S. Department of Labor – Office of Inspector General



procurement procedures led to contracts and contract modifications in FY 2010 that
component agencies could not provide documentation that they complied with the FAR
or a Senior Procurement Executive memorandum. In addition, component agencies
could not demonstrate through documentation that they performed required
procurement activities.


RECOMMENDATION

We recommend that the Assistant Secretary for Administration and Management
update DOL’s procurement regulations and guidance and develop detailed and
standardized procurement procedures using the Standards for Internal Control in the
Federal Government and input from component agency officials.


We appreciate the cooperation and courtesies that BLS, ETA, OASAM Dallas Region,
and OPS personnel extended to OIG during this audit. We have listed OIG personnel
who made major contributions to this report in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                   DOL Procurement Oversight
                                          15                      Report No. 17-12-002-07-711
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                       DOL Procurement Oversight
              16                      Report No. 17-12-002-07-711
             U.S. Department of Labor – Office of Inspector General




Exhibits 





                                       DOL Procurement Oversight
              17                      Report No. 17-12-002-07-711
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                       DOL Procurement Oversight
              18                      Report No. 17-12-002-07-711
                                                                U.S. Department of Labor – Office of Inspector General



                                                                             Exhibit 1
EPLS, conflict of interest certifications, and higher level of review exceptions.

24 Contracts and Contract Modifications Without EPLS Verification
    Contract Number                      Modification Number                     Obligated Amount
    DOLJ089326954                        0025                                    $3,979,498
    DOLJ101A21386                        N/A                                     $3,450,796
    DOLJ091A20986                        0001                                    $1,543,484
    DOLJ109A31122                        N/A                                     $1,476,298
    DOLJ109431340                        N/A                                     $771,222
    DOLJ079526604                        0012                                    $643,316
    DOLJ079N26473                        0008                                    $466,377
    DOLJ109429879                        N/A                                     $400,000
    DOLJ099629594                        0002                                    $208,800
                                                                                           a
    DOLJ102J14059                        N/A                                     $26,393
    DOLJ10HF20366                        N/A                                     $10,400
    DOLJ10HF20363                        N/A                                     $10,400
    DOLJ10FF22115                        N/A                                     $10,000
    DOLJ10FF22114                        N/A                                     $10,000
    DOLJ10FF22136                        N/A                                     $9,990
    DOLJ102J14093                        N/A                                     $9,315
    DOLJ10FF22125                        N/A                                     $8,215
    DOLJ10HF20371                        N/A                                     $7,967
    DOLJ10FE22135                        N/A                                     $7,619
    DOLJ10FF22136                        0001                                    $7,560
    DOLJ102J14093                        0001                                    $5,265
    DOLJ10FJ22130                        N/A                                     $5,021
    DOLJ10FF22122                        N/A                                     $3,679
                                                                                      b
    DOLJ109630975                        N/A                                     $0
    TOTAL                                                                        $13,071,615

a
  Contract performance period started prior to the contract award. According to the contracting agency official, the delay in awarding
the contract was partly due to interface problems between the E-Procurement System and the New Core Financial Management
System. OIG noted EPLS was not checked prior to receiving uninterrupted maintenance service.
b
  Component agencies often issue Indefinite Delivery Contracts (IDC) at $0 and administer them delivery and task orders. The
ceiling for this contract is approximately $1.1 million.




                                                                                                 DOL Procurement Oversight
                                                                 19                             Report No. 17-12-002-07-711
                                                                   U.S. Department of Labor – Office of Inspector General



4 Sole Source Contracts Without Conflict of Interest Certifications
    Contract Number                                                    Obligated Amount

    DOLJ109F30430                                                      $7,100,000
    DOLJ109E30985                                                      $204,700
    DOLJ109631286                                                      $39,803
    DOLJ102J14059                                                      $26,393
    TOTAL                                                              $7,370,896,


19 8(a) Contracts Without Conflict of Interest Certifications
    Contract Number                                                    Obligated Amount
    DOLJ101A21615                                                      $4,291,192
    DOLJ101A21386                                                      $3,450,796
    DOLJ101A21605                                                      $2,000,000
    DOLJ109A30134                                                      $1,396,927
    DOLJ109A30795                                                      $1,157,646
    DOLJ109A30312                                                      $1,102,342
    DOLJ109431340                                                      $771,222
    DOLJ109E31175                                                      $430,210
    DOLJ101A21422                                                      $350,000
    DOLJ109630857                                                      $154,980
    DOLJ101A21518                                                      $118,751
    DOLJ109A30876                                                      $79,205
    DOLJ109430010                                                      $76,134
    DOLJ109630254                                                      $37,158
    DOLJ109631228                                                      $32,020
                                                                            a
    DOLJ101A21443                                                      $0
                                                                            b
    DOLJ109630975                                                      $0
                                                                            c
    DOLJ109F30068                                                      $0
                                                                            d
    DOLJ109F31348                                                      $0
    TOTAL                                                              $15,448,582
a
  The ceiling for this IDC contract is $900,000. 

b
  The ceiling for this IDC contract is approximately $1.1 million. 

c
  The ceiling for this IDC contract is approximately $3 million. 

d
  The ceiling for this IDC contract is approximately $11 million.





                                                                                             DOL Procurement Oversight
                                                                       20                   Report No. 17-12-002-07-711
                                                  U.S. Department of Labor – Office of Inspector General



45 Contracts and Contract Modifications Without Documentation of Higher Level Review
Contract Number             Modification Number               Obligated Amount
DOLJ069E24614               0026                              $7,413,112
DOLJ081A20715               0011                              $5,572,764
DOLJ109E30501               N/A                               $5,096,094
DOLJ101A21386               N/A                               $3,450,796
DOLJ069E24614               0023                              $3,171,906
DOLJ109E30229               0002                              $2,526,218
DOLJ089427467               0013                              $2,256,004
DOLJ069E24614               0022                              $2,114,604
DOLJ069E24212               0019                              $2,100,000
DOLJ081A20618               0011                              $1,776,398
DOLJ071A20538               0011                              $1,609,682
DOLJ091A20931               0002                              $900,000
DOLJ109K29977               N/A                               $689,726
DOLJ079526604               0012                              $643,316
DOLJ109A30668               N/A                               $614,412
DOLJ109E30114               0005                              $595,334
DOLJ099529232               0001                              $594,010
DOLJ079N26473               0008                              $466,377
DOLJ079E25293               0007                              $439,568
DOLJ109429879               N/A                               $400,000
DOLJ099J28491               0016                              $360,435
DOLJ099628970               0003                              $302,824
DOLJ079E25293               0006                              $284,506
DOLJ071A20538               0012                              $283,759
DOLJ089A28096               0008                              $227,652
DOLJ099628970               0004                              $217,000
DOLJ099629594               0002                              $208,800
DOLJ079626087               0014                              $205,855
DOLJ089A27902               0025                              $190,180
DOLJ099J28491               0012                              $169,373
DOLJ099A29257               0003                              $149,338
DOLJ109A30876               N/A                               $79,205
DOLJ099629244               0001                              $43,970
DOLJ109631286               N/A                               $39,803
DOLJ10FF22115               N/A                               $10,000
DOLJ10FF22136               N/A                               $9,990
DOLJ10FF22125               N/A                               $8,215
DOLJ10HF20371               N/A                               $7,967
DOLJ10FE22135               N/A                               $7,619
DOLJ10FF22136               0001                              $7,560
DOLJ099629407               0013                              $4,976
DOLJ109A30875               0001                              $4,672
DOLJ109A30876               0001                              $1,836
DOLJ069E24614               0027                              $1,636
DOLJ099629407               0007                              $778
TOTAL                                                         $45,258,271


                                                                             DOL Procurement Oversight
                                                   21                       Report No. 17-12-002-07-711
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                       DOL Procurement Oversight
              22                      Report No. 17-12-002-07-711
                                                     U.S. Department of Labor – Office of Inspector General



                                                                                                       Exhibit 2
Statistical Projections - FY 2010 Contracts and Contract Modifications

Financial
                Universe   Sample   Exceptions ($)   Point          Sampling        Lower Limit     Upper Limit
                Size       Size                      Estimate       Precision
                                                                        95 % Confidence level


                                                                        ( +/- )


Competed and    141        67       $258,334         $1,091,830     $220,957        $870,874        $1,312,786
Sole Source
Combined


Modifications   301        68       $5,387,602       $16,384,279    $5,389,566      $10,994,713     $21,773,845




Number of Contracts and Contract Modifications
                Universe   Sample   Exceptions (#)   Point          Lower Limit                Upper Limit
                Size       Size                      Estimate
                                                                        95 % Confidence level




Competed and    141        67       4                11             3                          19
Sole Source
Combined


Modifications   301        68       5                18             4                          31




Estimation Methodology

According to our analysis of information extracted from EPS, DOL awarded 4,291
contracts and purchase orders totaling approximately $508 million and issued 5,615
contract and purchase order modifications totaling approximately $1.7 billion in
FY 2010. We reviewed recent audit reports issued by OIG and the FY 2011 audit
workplan. We determined that the ongoing and planned audits of Job Corps and MSHA
provided adequate coverage of the contracting functions of these agencies such that we
excluded them from our universe. In addition, we excluded OIG contracting from our
audit due to independence standards.

We determined that the most value-added approach based on the percentages of
obligated dollar value and number of actions was to limit the scope of the audit to the
following contracting actions awarded by BLS, ETA, and OASAM:




                                                                                   DOL Procurement Oversight
                                                      23                          Report No. 17-12-002-07-711
                                           U.S. Department of Labor – Office of Inspector General



   •	 initial contract actions stratified by those actions that were competed and those
      that were awarded on a sole source basis; and
   •	 contract modifications.

For several of the contracts within our universe, the relevant EPS field “Extent
Competed” was blank. In an effort to identify competition for these actions and classify
them, we referred to FPDS-NG as of February 1, 2011. Using the relevant FPDS-NG
field “Extent Competed,” we were able to associate a level of competition for all but nine
(9) of these contracts. As a result, we excluded these nine (9) contracts from the
universe.

We defined three universes as follows:

   •	 57 competed contracts with an obligated value totaling approximately $19 million;
   •	 84 sole source contracts with an obligated value totaling approximately $39
      million; and
   •	 301 contract modifications totaling approximately $183 million.

We used a stratified random sampling methodology for variables and attributes. The
error rate was unknown and we used an expected error rate of 16 percent (based on
assumed medium risk weighting) with a materiality for variables of four percent. We
selected samples using a 95 percent confidence level and a desired precision of +/-
seven percent.

The files we tested in each of the universes were as follows:

   •	 Sample 1—36 competed contracts with an obligated value totaling approximately
      $14.7 million;
   •	 Sample 2—31 sole source contracts with an obligated value totaling 

      approximately $22 million; and 

   •	 Sample 3—68 contract modifications with an obligated value totaling 

      approximately actions awarded totaling approximately $104 million.





                                                                     DOL Procurement Oversight
                                            24                      Report No. 17-12-002-07-711
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                         DOL Procurement Oversight
                25                      Report No. 17-12-002-07-711
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                       DOL Procurement Oversight
              26                      Report No. 17-12-002-07-711
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix A
Background

DOL decentralized procurement authority among OASAM, ETA, BLS, MSHA and OIG.
Secretary’s Order 2-2009 states that the Assistant Secretary for Administration and
Management is DOL’s CAO, and with the exception of the OIG, is responsible providing
oversight for all DOL procurement activities, including delegating contracting officers the
authority to procure goods and services. OASAM’s OPS procures goods and services
for all DOL agencies except BLS; Job Corps’ center operations, outreach and
placement, and architectural and engineering services; MSHA; and OIG. OASAM
conducts the highest number of DOL procurements, which includes procurements for
Information Technology and other goods and services. OPS awards contracts and
issues contract modifications for most DOL agencies. OPS is responsible for servicing
OASAM Regional Offices for open market purchases that exceed small purchase
limitations.

There are various forms of contracts, which fall into the categories of either fixed-price
contracts or cost reimbursement contracts according to the FAR. DOL awards
procurement contracts based on full and open competition to determine the contract
actions best suited to fulfill requirements sought by DOL component agencies.

DOL is responsible for complying with the Standards, which provide the overall
framework for establishing and maintaining internal control and for identifying areas at
greatest risk of fraud, waste, abuse, and mismanagement. DOL’s procurement program
has been an OIG top management challenge and remains a concern for OIG. Recent
OIG reports found that MSHA and Job Corps could not demonstrate that their
procurement processes complied with the FAR. In FY 2010, DOL awarded 4,291
contracts and purchase orders totaling approximately $508 million and issued 5,615
contract and purchase order modifications totaling approximately $1.7 billion.




                                                                      DOL Procurement Oversight
                                             27                      Report No. 17-12-002-07-711
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                       DOL Procurement Oversight
              28                      Report No. 17-12-002-07-711
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the following question:

To what extent did DOL ensure that contracts were awarded based on the best value to
the government and contract modifications were issued within the terms of initial
contracts?

Scope

In FY 2010, DOL awarded 4,291 contracts and purchase orders totaling approximately
$508 million and issued 5,615 contract and purchase order modifications totaling
approximately $1.7 billion. We excluded the following actions awarded by DOL in
FY 2010:

   •	   Basic Ordering Agreement actions;
   •	   Blanket Purchase Agreement actions;
   •	   Federal Supply Schedule actions;
   •	   Government-Wide Area actions;
   •	   Purchase Order actions;
   •	   Micro-purchases (procurements $3,000 or less: excluded from contracts only.
        We added Indefinite Delivery Contracts, which were either $0 or less than
        $3,000, back to the population);
   •	   De-obligating actions (action with negative balances);
   •	   Contracting actions awarded by OIG and MSHA;
   •	   Contracting actions awarded for the Job Corps program;
   •	   Delivery and task orders; and
   •	   $0 obligation amounts.

Of the FY 2010 contracts awarded and contract modifications issued by BLS, ETA, and
OASAM, these agencies awarded 141 contracts totaling approximately $58.8 million
and issued 301 contract modifications totaling approximately $183 million. Of these
contracts and contract modifications, DOL funded $12.6 million in contracts and
$3.3 million in contract modifications under ARRA.

We conducted our audit work at BLS, ETA, OPS, and OASAM Regional Offices, which
each have delegated procurement authority. In addition, we also contacted officials at
MSHA to discuss awards it made to a contractor subsequent to SBA placing the
contractor on EPLS that lists, among other things, parties excluded from receiving
Federal contracts. We reviewed eight contract modifications MSHA issued to this
suspended contractor.



                                                                    DOL Procurement Oversight
                                           29                      Report No. 17-12-002-07-711
                                                          U.S. Department of Labor – Office of Inspector General



Methodology

Internal controls provide reasonable assurance regarding the prevention of or prompt
detection of unauthorized acquisition, use, or disposition of an agency’s assets. To
accomplish our audit objectives, we obtained an understanding of applicable laws,
regulations and DOL policies and procedures. We interviewed procurement officials at
OPS, OASAM Dallas Regional Office, BLS and ETA to gain an understanding of their
procurement processes. We also interviewed the OAMS Director to gain an
understanding of the department-wide internal controls structure for procurement — that
is, standard procurement methods and procedures. The audit team used Data
Collection Instruments to capture the FAR elements for the purposes of this audit. We
used the definition of “best value” in FAR, Part 2, Subpart 2.101, which defines best
value as “the expected outcome of a [procurement] that, in the Government’s
estimation, provides the greatest overall benefit in response to the requirement.”

To assess the reliability of the data OASAM's contractor provided in its EPS extract of
FY 2010 contracting actions we (1) performed limited electronic testing of key data
elements — action type name, contracting office code, and program office code-to
detect missing values and periods of time, invalid identifiers, and obvious errors; (2)
compared total FY 2010 obligations and number of contracting actions in the EPS
extract against DOL’s general ledger system (New Core Financial Management
System) and the FPDS—NG; (3) performed, to the extent possible, a limited
reconciliation of FY 2010 BLS, ETA, and OASAM awards against the FPDS—NG; (4)
followed up on trends, unusual changes, and outliers found; (5) reviewed existing
information and documentation about EPS and the process the contractor used for
extracting the FY 2010 contracting actions data from EPS; (6) interviewed officials from
OASAM about EPS controls and guidance to contracting officers for entering
contracting actions into EPS; and (7) performed some checks on the FY 2010
contracting actions data extracted from EPS against records from a selection of
procurement files.

When we found discrepancies (such as non-populated fields or missing records), we
brought them to the attention of the OAMS Director and worked with her to identify the
source of the discrepancies before conducting our analyses. For several of the actions,
the relevant EPS field “Extent Competed” was blank. In an effort to identify competition
for these actions, we referred to FPDS-NG as of February 1, 2011. Using the relevant
FPDS-NG field “Extent Competed,” we were able to associate a level of competition for
all but a few of these actions, and excluded these few actions from the universe of data
within our scope. We determined that the data were sufficiently reliable for the purposes
of our report.

We reviewed a statistical sample of FY 2010 contracts and contract modifications that
were awarded and issued by BLS, ETA (excluding Job Corps), and OASAM. 19 We
tested our sample using a Data Collection Instrument we developed based on the FAR,
DLMS 2, DOLAR, CO Notices, and internal policies issued by BLS, ETA, and OPS.
19
     See Exhibit 2 for details on statistical sampling.

                                                                                    DOL Procurement Oversight
                                                           30                      Report No. 17-12-002-07-711
                                           U.S. Department of Labor – Office of Inspector General




We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Criteria

   •	 BLS Policies

   •	 DLMS 2, Chapter 810 (October 21, 1991)

   •	 DLMS 2, Chapter 830, (August 9, 2004)

   •	 ETA Division of Contract Services Memorandums

   •	 ETA Standard Operating Procedures

   •	 FAR, March 2005

   •	 Competition in Contraction Act of 1984, 41 United States Code (U.S.C.) 253

   •	 Department of Labor Acquisition Regulation System, Title 48, CFR 29

   •	 GAO, Standards for Internal Control in the Federal Government (GAO/AIMD-00-
      21.3.1), November 1999

   •	 GAO, Assessing the Reliability of Computer-Processed Data (GAO-09-680G),
      July 1999

   •	 OASAM Contracting Officer Notices

   •	 OPS Bulletin A10—Independent Government Cost Estimates

   •	 OPS Bulletin A12—To Provide Instructions and Template Format for 

      Procurements Involving Other Than Full and Open Competition 


   •	 OPS Bulletin A14—Purchase of Name Brand Products

   •	 OPS Bulletin A17—Advisory and Assistance Services Approvals

   •	 OPS Bulletin A19—Approval Checklist Required for Procurement Actions



                                                                     DOL Procurement Oversight
                                            31                      Report No. 17-12-002-07-711
                                     U.S. Department of Labor – Office of Inspector General



•	 OPS Bulletin B1—Guidance on Requests for Contract Modifications

•	 OPS Bulletin B4—Guidance on exercising option years on existing contracts

•	 OPS Policy Memo #08-02: Supervisory Review of OPS Contract Actions

•	 OPS Policy Memo #08-03: CCR and EPLS Verification

•	 OPS Policy Memo #08-04: Maintenance of Contract Files

•	 OPS Policy Memo #08-05:Annual Self-Inspection Program

•	 Partnership Agreement Between the U.S. Small Business Administration And the
   U.S. Department of Labor—8(a) Business Development Program, September
   2009

•	 Senior Procurement Executive Memorandum: Procurement Guidance to
   Strengthen Internal Controls for DOL's Acquisition Process, September 30, 2008




                                                               DOL Procurement Oversight
                                      32                      Report No. 17-12-002-07-711
                                        U.S. Department of Labor – Office of Inspector General



                                                                               Appendix C
Acronyms

ARRA        American Recovery and Reinvestment Act of 2009

BLS         Bureau of Labor Statistics

CAO         Chief Acquisition Officer

CO          Contracting Officer

DLMS        Department of Labor Manual Series

DOL         U.S. Department of Labor

DOLAR       Department of Labor Acquisition Regulations

EPLS        Excluded Parties List System

ETA         Employment and Training Administration

FAR         Federal Acquisition Regulation

FPDS-NG     Federal Procurement Data System—Next Generation

FY          Fiscal Year

GAGAS       Generally Accepted Government Auditing Standards

GAO         Government Accountability Office

IDC         Indefinite Delivery Contract

IGCE        Independent Government Cost Estimate

Job Corps   Office of Job Corps

MSHA        Mine Safety and Health Administration

OAMS        Office of Acquisition Management Services

OASAM       Office of the Assistant Secretary for Administration and Management

OIG         Office of Inspector General

OPS         Office of Procurement Services

PRB         Procurement Review Board

SBA         Small Business Administration

Standards   Standards for Internal Control in the Federal Government

                                                                  DOL Procurement Oversight
                                         33                      Report No. 17-12-002-07-711
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                       DOL Procurement Oversight
              34                      Report No. 17-12-002-07-711
                                 U.S. Department of Labor – Office of Inspector General



                                                                        Appendix D
OASAM Response to Draft Report




                                                           DOL Procurement Oversight
                                  35                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 36                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 37                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 38                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 39                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 40                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 41                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 42                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 43                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 44                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 45                      Report No. 17-12-002-07-711
U.S. Department of Labor – Office of Inspector General




                          DOL Procurement Oversight
 46                      Report No. 17-12-002-07-711
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Tracy Michael Katz (Audit Director), Heather Atkins,
Yung C. Lee, Rodelito Homoroc, Andrew Loomis, Jesse Blatz, Lora Latterner, Ajit
Buttar, Renee Harrison-Womack, Dave Sterling, Carolyn Cayode-Gorman, William
Aumand, and Dorothy Dorsey.




                                                                    DOL Procurement Oversight
                                           47                      Report No. 17-12-002-07-711
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
